Review of Low Level Radioactive
   Waste Liability Estimates

            2006-506I
         February 23, 2006
Objective and Scope

     Objective: Assess the reasonableness of estimates made for disposal of low
      level radioactive waste (LLRW).


     Scope: Estimates made for the disposal costs of the LLRW covering Fiscal
      Years (FY) 2005 and 2006.




                                                                                   2
Methodology
     In order to accomplish our objective, we:
       –   Interviewed the Program Manager, Radwaste and Environmental Protection, TVA Nuclear
           Operations, to document the process and methodology for establishing LLRW estimates and
           accruals.

       –   Obtained and reviewed FY 2005 LLRW disposal estimates, budgets, accruals, and actual
           disposal expenditures.

       –   Obtained and reviewed FY 2006 LLRW estimates and budgets.

       –   Analyzed FY 2005 LLRW data by:
                Recreating FY 2005 estimates based on the described process.

                Comparing FY 2005 estimates to actual expenditures.

                Comparing FY 2005 estimates to budgeted expenses.

                Comparing FY 2005 budgeted expenses to actual expenditures.

       –   Analyzed FY 2006 LLRW data by:
                Recreating FY 2006 estimates based on the described process.

                Comparing FY 2006 estimates to budgeted expenses.


             * This inspection was conducted in accordance with the “Quality Standards for Inspections.”

                                                                                                           3
Background
     LLRW disposal estimates are used for budgeting purposes only.
       –   Estimates consider historical data, contract rates, and plant LLRW generation
           estimates.

     Estimates are developed for both dry active waste (DAW) and wet active waste
      (WAW) on a site-by-site basis.
       –   DAW is composed of radioactive trash, paper, metal, clothing, and plastic.

       –   WAW is composed of radioactive resins and filters used to clean water from the plant.

     LLRW disposal estimates for FY 2005 were $2,832,902 and for FY 2006 are
      $2,959,000.

     LLRW disposal budgets are developed by each nuclear plant, but may not
      equate to the estimates developed by the Manager, Radwaste and
      Environmental Protection.

     LLRW liabilities have been accrued for (1) WAW beginning September 2001 and
      (2) DAW beginning June 2004.


                                                                                                   4
Background (cont’d)
     Procedures for the accrual of LLRW expenses are found in CFO-SPP-13.3
      “Accrued Liabilities” and BP-263 “Low Level Radioactive Waste Liability
      Accrual.”

     Accruals are posted to the Integrated Business System monthly for all waste
      generated that month.
       –   DAW is considered to be generated when it is placed in a sealand storage container.

       –   WAW is considered to be generated when the high integrity container is capped and
           ready for disposal.

     Special projects such as the Browns Ferry Unit 1 Restart are not considered in
      the LLRW estimates or accruals. All generation tied to special projects falls
      under the special project budget.




                                                                                                 5
Summary

    The FY 2005 and 2006 LLRW estimates appeared reasonable when unforeseen
     incurred LLRW disposal costs were taken into account.
    The LLRW expense and liability accounts are adjusted quarterly. However, the
     accrual calculation is based on the sites’ accurately reporting LLRW at the site.




                                                                                         6
Observation 1: Estimates

     We found the estimates for FY 2005 appeared reasonable.
       –    The LLRW disposal estimates for 2005 totaled about $2,833,000 while actual
            expenditures were about $3,459,000.
       –    Actual expenditures are not tied to LLRW generation accruals.
       –    While the difference is $626,000 (22 percent), explanations provided and/or our review
            of documentation showed that unexpected LLRW costs were incurred because:
                 Construction debris and gravel found at Watts Bar Nuclear Plant ($21,280) and Sequoyah
                  Nuclear Plant (approximately $283,220) was determined to be LLRW.
                 Nuclear produced more higher cost WAW than originally estimated ($160,000).
                 A spill at Watts Bar Nuclear Plant caused an entire resin bed to be replaced--actual cost was
                  not provided.

     We found the processes, methodology, and assumptions used to develop the
      FY 2006 LLRW disposal estimates were consistent with those used in
      developing FY 2005 estimates.
      Additional Information: We noted that the process and methodology for developing LLRW estimates is not
      documented and a lack of cross-training potentially exists.



                                                                                                                  7
Observation 2: Policies

     BP-263 requires the following:
       –   Liability account reconciliation on a quarterly basis.
       –   Adjustment to each Nuclear plant’s site expense account based on quarterly
           reconciliation.




       We found:
       –   The liability account is reconciled and adjusted on a quarterly basis.
       –   Outstanding invoices, waste generated, and waste stored on-site are used to calculate
           the adjustment to the LLRW liability account and site expense accounts.
       –   The LLRW disposal liability account’s accuracy depends on knowing that all waste is
           properly identified at the plant.
                No physical inventory is currently done at the plant to ensure that all waste is accounted for.




                                                                                                                   8
Recommendations

     The Senior Vice President, Nuclear Operations, should consider:
       –   Documenting the methodology for estimating LLRW disposal costs.

       –   Formally evaluating the feasibility of a physical inventory being done on an annual
           basis at each plant to assess the amount of waste stored on-site.




                                                                                                 9
